U.S. PATENT AND
TRADEMARK OFFICE
USPTO Deployed Wireless
Capability with Minimal
Consideration for IT
Security




FINAL REPORT NO. OIG-13-014-A
FEBRUARY 1, 2013



U.S. Department of Commerce
Office of Inspector General
Office of Audit and Evaluation

FOR PUBLIC RELEASE
                                                            UNITED STATES DEPARTMENT OF COMMERCE
                                                            Office of Inspector General
                                                            W ashingt on, D.C. 20230



February I , 20 I 3

MEMORANDUM FOR:               David Kappes
                              Under Secretary of Commerce for Intellectual Property and
                              Director of the U.S. Patent and Trademark Office

                             Teresa Stanek Rea
                             Deputy Under Secretary of Commerce for Intellectual Property
                             and Deputy Director of the USPTO


FROM: 	                      Allen Crawley    ~~
                             Assistant Inspector General for Systems Acquisition
                             and IT Security

SUBJECT: 	                   USPTO Deployed Wireless Capability with Minimal Consideration
                             for IT Security
                             Final Report No. OIG-13-0 14-A


Attached is the final report of our audit of USPTO's Public and Enterprise Wireless LAN
(PEWLAN) system, which we conducted to meet our obligations under the Federal Information
Security Management Act.

We found that USPTO inappropriately connected PEWLAN to USPTO's operational
environment and placed PEWLAN into operation without proper authorization.

We recommend that USPTO ensure that the system owners register all systems under
development in Cyber Security Assessment and Management during the system's initiation
phase and that USPTO rigorously applies its system development life cycle (SDLC) process and
NIST's risk management framework to all system development projects. Further, we
recommend that system owners, information system security officers, technical leads, project
managers, and program managers attend USPTO's SDLC role-based training course on a
regular basis. Finally, we recommend that Cybersecurity Division representatives have a role in
deciding whether IT system development projects should transition to a subsequent phase in
the SDLC based on their assessment of the effectiveness of incorporating security into the
process.

We are pleased that in response to our draft report, you concurred with our findings and
recommendations. We have summarized your response in the report and included the
response as an appendix. We will post this report on OIG's website.

In accordance with Department Administrative Order 213-5 , please provide us w ith your
action plan within 60 calendar days from the date of this memorandum. The plan should outline
actions you propose to take to address each recommendation.
We appreciate the cooperation and courtesies extended to us by your staff during our audit.
Please direct any inquiries regarding this report to me at (202) 482-1855 and refer to the
report title in all correspondence.

Attachment

cc: 	   Simon Szykman, Chief Information Officer
        john Owens, Chief Information Officer, USPTO
        Rod Turk, Director, Office of Cyber Security, and Chief Information Security Officer
        Welton Lloyd, Audit Liaison, USPTO
        Susan Schultz Searcy, Audit Liaison, Office of the Chief Information Officer
                                           Report In Brief                                F E B R U AR Y 1 , 2 0 1 3




Background                              U.S. PATENT AND TRADEMARK OFFICE
The Public and Enterprise Wireless
LAN (PEWLAN) system provides
                                        USPTO Deployed Wireless Capability with Minimal
wireless access on USPTO’s Alexan-      Consideration for IT Security
dria, Virginia, campus. PEWLAN
provides USPTO employees and            OIG-13-014-A
contractors access to internal
USPTO systems and information as if     WHAT WE FOUND
they were using a wired connection
to perform their work, which can        PEWLAN was inappropriately connected to USPTO’s operational environment. In April
include financial and patent applica-   2012, USPTO first connected PEWLAN to its operational environment. Over
tion information.                       the next 3 months, PEWLAN remained connected intermittently to USPTO’s
                                        operational environment. However, before connecting PEWLAN, USPTO did
When we began our audit on June
                                        not identify, implement, and document security controls required to protect the
27, 2012, USPTO insisted that PEW-
LAN was under development and           system. As a result, USPTO was unable to assess appropriate security controls,
was not operational and requested       which is a critical step to understanding the security risks when introducing a
that we wait until 2013 to review the   new system into an operational environment. Thus, USPTO put its critical
system. However, we independently       operational systems at risk.
verified that USPTO had connected
PEWLAN to its operational environ-      PEWLAN was placed into operation without proper authorization. USPTO placed
ment.                                   PEWLAN into operation in early June 2012 and made the system available to
                                        users without having the required authorization to operate the system. USPTO
Why We Did This Review                  granted an interim authorization to test (IATT) for PEWLAN based solely on the
                                        risks identified in penetration test reports and without assurance that security
We evaluated PEWLAN as part of
                                        controls were properly implemented. Furthermore, USPTO should have issued
our FY 2012 Federal Information
Security Management Act of 2002         an IATT before conducting penetration testing.
(FISMA) audit.
                                        WHAT WE RECOMMEND
Our objective was to assess the ef-
fectiveness of USPTO’s IT security      We make the following recommendations to the Under Secretary of Commerce
program by determining whether          for Intellectual Property and Director of the U.S. Patent and Trademark Office:
key security measures adequately
protect its systems and its infor-      1. 	 Ensure that system owners register all systems under development in Cyber
mation. To do so, we assessed securi-        Security Assessment and Management during the initiation phase of the
ty measures USPTO employed during            SDLC.
development of its PEWLAN system.
                                        2. 	 Ensure that USPTO rigorously applies its SDLC process and the RMF to all
                                            IT system development projects. This should include ensuring that required
                                            system security documents are appropriately developed and updated and
                                            that security controls required to protect a system are implemented and
                                            assessed.
                                        3. 	 Ensure that system owners, information system security officers, technical
                                            leads, project managers, and program managers attend the SDLC role-based
                                            training course regularly.
                                        4. 	 Ensure that the Cybersecurity Division representatives have a role in
                                            deciding whether IT system development projects should transition to a
                                            subsequent phase in the SDLC, based on their assessment of the
                                            effectiveness of incorporating security into the process.
U.S. DEPARTMENT OF COMMERCE                                                                                         OFFICE OF INSPECTOR GENERAL

Contents

Introduction .......................................................................................................................................................1

Background ........................................................................................................................................................3

Findings and Recommendations ....................................................................................................................5

   I.      PEWLAN Was Inappropriately Connected to USPTO’s Operational Environment ...........5

   II.     PEWLAN Was Placed into Operation Without Proper Authorization ..................................6

   Conclusion .....................................................................................................................................................6

   Recommendations ...........................................................................................................................................8

Summary of Agency Response and OIG Comments ................................................................................9

Appendix A: Objectives, Scope, and Methodology ................................................................................ 10

Appendix B: Agency Response ................................................................................................................... 12





FINAL REPORT NO. OIG-13-014-A
U.S. DEPARTMENT OF COMMERCE                                           OFFICE OF INSPECTOR GENERAL

Introduction

The U.S. Patent and Trademark Office (USPTO) fosters innovation, competitiveness, and
economic growth through quality and timely examinations of patent and trademark applications.
Patent operations, which account for the vast majority of USPTO’s staffing and monetary
resources, determine whether inventions claimed in patent applications are new, useful, and
non-obvious. The timely granting of quality patents provides inventors with exclusive rights to
their discoveries and contributes to the strength and vitality of the U.S. economy.
As part of our FY 2012 Federal Information Security Management Act (FISMA) audit, we
evaluated USPTO’s Public and Enterprise Wireless LAN (PEWLAN) system, which provides
wireless access on USPTO’s Alexandria, Virginia, campus. PEWLAN provides USPTO
employees and contractors access to internal USPTO systems and information as if they were
using a wired connection to perform their work, which can include accessing financial and
patent application information. It also provides Internet access to authorized USPTO visitors
and guests using their own devices, such as laptops, tablets, and smartphones.
When we began our audit on June 27, 2012, USPTO insisted that PEWLAN was under
development and was not operational and requested that we wait until 2013 to review this
system. However, we independently verified that USPTO had connected PEWLAN to its
operational environment (e.g., production systems and critical information). In addition, in late
June 2012, USPTO posted documents on its chief information officer’s (CIO’s) intranet, which
informed employees and contractors that the new wireless capabilities were available and
described how to use them.

USPTO first connected PEWLAN to its operational environment starting in April 2012 to allow
a contractor to perform penetration testing. Three reports issued by the contractor identified
significant security weaknesses and vulnerabilities. However, before completely remediating
these weaknesses and vulnerabilities, USPTO placed PEWLAN into operation on June 11, 2012.

We determined that USPTO placed PEWLAN into operation despite serious security
weaknesses and significant vulnerabilities and had not implemented the required security
controls and conducted proper control assessment as defined by FISMA. As a result, on August
7, 2012, we issued a memorandum to the Under Secretary of Commerce for Intellectual
Property and Director of the U.S. Patent and Trademark Office, stating that the current
security posture of PEWLAN presented significant and undue risks to USPTO’s operational
systems and information and recommending that USPTO immediately disconnect PEWLAN
from USPTO’s operational environment. Our memorandum also informed USPTO that we
would be issuing an audit report containing additional recommendations. The Under Secretary
responded via e-mail that same day, noting that USPTO had disconnected PEWLAN.

On September 19, 2012, USPTO’s CIO issued a memorandum acknowledging that USPTO did
not fully comply with its system development life cycle (SDLC) process—which places a priority
on security participation and authorization—during development of PEWLAN.




FINAL REPORT NO. OIG-13-014-A                                                                   1
U.S. DEPARTMENT OF COMMERCE                                                    OFFICE OF INSPECTOR GENERAL
In addition, USPTO initiated PEWLAN as a project in June 2011; however, it did not identify
(register 1) PEWLAN as a system under development in the Department’s information system
inventory maintained in the Cyber Security Assessment and Management (CSAM) tool. USPTO
did not register PEWLAN as a system under development until July 6, 2012—13 months after
USPTO began development and 9 days after we began our fieldwork.

Table 1 contains a timeline of USPTO’s development and our audit of PEWLAN. We reviewed
the security measures USPTO employed during development of PEWLAN. See appendix A for
details regarding our objectives, scope, and methodology.

     Table 1. Timeline for PEWLAN Development and Audit
       Date                       Event
       June 2011                  USPTO initiated PEWLAN project.
                                  USPTO connected PEWLAN to its operational
       April 2012                 environment for penetration testing by contractor.
                                  USPTO placed PEWLAN into operation with no
       June 11, 2012              authorization to operate.
                                  OIG held audit kickoff meeting–USPTO denied wireless was
       June 27, 2012              operational.
       June 29, 2012              OIG confirmed PEWLAN was operational.
       June 29, 2012              USPTO issued interim authorization to test for PEWLAN.
                                  USPTO registered PEWLAN as a system under
                                  development in Cyber Security Assessment and
       July 6, 2012               Management.
                                  OIG issued memo to the Director, USPTO, recommending
       August 7, 2012             USPTO disconnect PEWLAN.
       August 7, 2012             USPTO disconnected PEWLAN.
       August 15, 2012            USPTO issued an authorization to operate for PEWLAN.
       August 22, 2012            USPTO reconnected PEWLAN.
       September 19, 2012         USPTO’s CIO responded to OIG’s August 7 memorandum.
     Source: OIG analysis




1
  Step 1 of the risk management framework described in NIST SP 800-37 requires the system owner to “Register
the information system with appropriate organizational program/management offices,” which identifies the system
in the system inventory.


FINAL REPORT NO. OIG-13-014-A                                                                                2
U.S. DEPARTMENT OF COMMERCE                                                     OFFICE OF INSPECTOR GENERAL

Background

USPTO’s Office of the Chief Information Officer has developed an SDLC process, which
includes measures to incorporate IT security early in a system’s life cycle. The process intends
to ensure that the system is secure and conforms to USPTO and federal IT security standards
and guidelines. The National Institute of Standards and Technology (NIST) has developed a risk
management framework (RMF) 2 for ensuring integration of appropriate IT security
requirements into an organization’s enterprise architecture and SDLC process. The goals of
USPTO’s SDLC are compatible with NIST’s RMF. The RMF includes guidance for developing
system security plans, conducting security control assessments, and authorizing systems to
operate during all phases of a system’s life cycle.

System Security Plans

The RMF assigns the system owner responsibility for developing and maintaining the system
security plan. The system security plan provides an overview of security requirements and
describes the controls in place or planned for meeting those requirements. The plan also
describes implementation details for security controls and thus serves as a basis for assessing
control effectiveness. The plan further serves as the vehicle for documenting the structured
process of planning adequate, cost-effective security protection for a system. System security
plans are living documents that require periodic review and modification to reflect the status of
the system during the development life cycle. The authorizing official is responsible for
approving system security plans.

Security Control Assessments

The RMF also includes guidance for conducting security control assessments throughout the
SDLC and recommends conducting them as early as practicable. The purpose of the
assessments is to ensure that the security controls, as described in the system security plan, are
operating as intended. Therefore, the security plan must document security controls as
accurately as possible. The RMF further requires documenting assessment results in a security
assessment report, used by the authorizing official to make a risk-based decision about the
appropriate authorization status of a system, and documenting security weaknesses in plans of
action and milestones (POA&Ms).

Security Authorization

The RMF describes the process of granting or denying authorization for an information system
to operate based on a determination of risks to organizational operations and assets,
individuals, other organizations, and the nation resulting from the operation of the system. The
authorizing official uses the system security plan, security assessment report, and POA&M—
2
 NIST outlined a six-step process to manage risks throughout an information system’s life cycle. Federal agencies
have been required to follow the process for new system development since February 2010. NIST, February 2010.
Guide for Applying the Risk Management Framework to Federal Information Systems, NIST SP 800-37. Gaithersburg,
MD: NIST.


FINAL REPORT NO. OIG-13-014-A                                                                                 3
U.S. DEPARTMENT OF COMMERCE                                           OFFICE OF INSPECTOR GENERAL
collectively referred to as the security authorization package—along with other available
documents, such as a risk assessment report, to determine risks associated with operating the
system and the acceptability of these risks. If the risks are acceptable, the authorizing official
issues an authorization to operate for a specified period under certain terms and conditions.

The RMF also includes an interim authorization to test (IATT)—a special type of authorization
decision allowing an information system to operate in an operational environment in order to
test the system with actual operational (i.e., live) data for a specified period. The authorizing
official grants an IATT only when the operational environment or live data are required to
complete specific test objectives. The IATT allows organizations to assess functional and
security requirements within a system’s intended environment during development.




FINAL REPORT NO. OIG-13-014-A                                                                    4
U.S. DEPARTMENT OF COMMERCE                                         OFFICE OF INSPECTOR GENERAL

Findings and Recommendations

  I.	   PEWLAN Was Inappropriately Connected to USPTO’s Operational
        Environment

    In April 2012, 10 months after initiating the PEWLAN project, USPTO first connected
    PEWLAN to its operational environment to conduct penetration tests, which identified
    serious security weaknesses in the system’s architecture and security controls. Over the
    next 3 months, PEWLAN remained connected intermittently to USPTO’s operational
    environment. However, before connecting PEWLAN to the operational environment,
    USPTO did not identify, implement, and document security controls required to protect
    the system. As a result, USPTO was unable to assess appropriate security controls, which is
    a critical step to understanding the security risks when introducing a new system into an
    operational environment. Thus, USPTO put its critical operational systems at risk while
    conducting penetration tests, remediating weaknesses, and implementing architectural
    changes associated with PEWLAN.

    While the penetration testing provided some visibility of the security risks associated with
    PEWLAN, it is only part of the security control assessments required by the RMF. It does
    not constitute a full assessment of security control implementations, nor does it convey all
    risks to USPTO’s operational environment. Nonetheless, the tests did identify the following
    risks, which most concerned us:

             1.	 Internal infrastructure components were visible to public users.
             2.	 Authentication of users did not function as intended.
             3.	 Credentials used to log on to USPTO systems were vulnerable on the public
                 portion of PEWLAN.
             4.	 The wireless intrusion prevention system did not appropriately detect and
                 provide alerts for security events.

    As a result, the penetration testing itself, by directly connecting PEWLAN to the

    operational environment, increased the risk of compromise due to the presence of these 

    vulnerabilities. 


    In addition, before performing these penetration tests, USPTO should have selected and
    implemented the appropriate required set of security controls and described their
    implementation in a system security plan, which serves as a foundation for conducting
    security control assessments and documenting risk throughout a system’s life cycle.
    However, USPTO made little progress toward identifying security requirements, developing
    the system security plan, or conducting control assessments in the 10 months following
    PEWLAN’s initiation. Without a fully developed system security plan and adequate security
    control assessments, USPTO did not have an accurate perspective of associated risks to
    support its decision to put PEWLAN into its operational environment. In fact, when
    penetration testing started, an internal preliminary risk assessment report issued by
    USPTO’s Cybersecurity Division, on April 17, 2012, indicated that “there is no documentation


FINAL REPORT NO. OIG-13-014-A                                                                 5
U.S. DEPARTMENT OF COMMERCE                                                      OFFICE OF INSPECTOR GENERAL
          available associated to PEWLAN.…Therefore the current security features and posture are

          unknown to internal stakeholders.”


    II.      PEWLAN Was Placed into Operation Without Proper Authorization

          USPTO placed PEWLAN into operation in early June 2012 and thus made the system
          available to users without having the required authorization to operate the system 3. On
          June 29, 2012—2 days after our audit kickoff meeting—USPTO’s CIO issued an IATT for
          PEWLAN with an expiration date of September 29, 2012.

          However, USPTO granted the IATT for PEWLAN based solely on the risks identified in the
          penetration test reports and without assurance that security controls were properly
          implemented. Furthermore, USPTO should have issued an IATT before conducting the
          penetration testing in April 2012.

          Although the IATT identified the need to remediate vulnerabilities discovered during
          penetration testing and to finalize documentation for the system, it did not address key
          elements to support the authorization decision. For example, the IATT did not identify
          specific test objectives and did not specifically identify the need to conduct security control
          assessments and develop a complete security authorization package before expiration of the
          IATT. When USPTO issued the IATT, the only system security plan that existed was a
          preliminary draft, which did not include implementation descriptions for security controls
          and did not allocate them to PEWLAN system components. Without fully addressing these
          key elements, USPTO could not realistically determine risks associated with operating
          PEWLAN during the IATT.

Conclusion

          We found that USPTO did not develop appropriate security documents, perform security
          control assessments, or assess risks before conducting penetration testing or beginning
          deployment of PEWLAN.
          According to USPTO’s SDLC process, persons with system development roles (e.g., project
          managers, system owners, and technical leads) are responsible for coordinating with
          representatives from the Cybersecurity Division to ensure that security-related documents
          are developed and updated and that appropriate authorization actions, including control
          assessments, are completed throughout a system’s life cycle. We found that security
          missteps during PEWLAN’s development occurred largely because this coordination was
          ineffective. Furthermore, based on interviews with USPTO officials and our analysis,
          pressure from an aggressive project schedule likely contributed to lapses in following the
          SDLC process.

3
 Security control CA-6, Security Authorization, specifies that the organization should ensure that the authorizing
official authorizes the information system for processing before commencing operations. NIST, August 2009.
Recommended Security Controls for Federal Information Systems and Organizations, NIST SP 800-53. Gaithersburg, MD:
NIST.



FINAL REPORT NO. OIG-13-014-A                                                                                  6
U.S. DEPARTMENT OF COMMERCE                                          OFFICE OF INSPECTOR GENERAL
    To promote an understanding of the relationship between USPTO’s SDLC process and the
    RMF and to improve group coordination during system development, USPTO recently
    implemented an SDLC role-based training course for information system security officers,
    system owners, technical leads, project managers, and program managers. The course maps
    the phases of USPTO’s SDLC to the general life cycle referred to in descriptions of NIST’s
    RMF and identifies security documents and the roles associated with their production
    during the various SDLC phases. Specifically, it reinforces the role of facilitation points of
    contact, who are representatives from the Cybersecurity Division tasked with assisting
    system owners, information system security officers, and technical leads in developing and
    maintaining system security documentation, updating and maintaining security information in
    system design documents, and implementing continuous monitoring.

    Institutionalizing the SDLC role-based training course should significantly increase the
    likelihood of appropriately incorporating security into USPTO’s SDLC. Furthermore,
    USPTO has indicated that because of our audit, it has started implementing a procedure
    where the Cybersecurity Division representatives have a role in deciding whether IT system
    development projects should transition to a subsequent phase in the SDLC based on their
    assessment of the effectiveness of incorporating security into the process.

    Since issuing the IATT on June 29, 2012, USPTO has developed system design documents
    and an approved system security plan, developed procedures for assessing security controls,
    and conducted security control assessments for PEWLAN. On August 15, 2012, USPTO’s
    CIO issued an authorization to operate for PEWLAN based on his review of a complete
    security authorization package. Our review of the authorization package noted several
    issues in the system’s POA&M—most notably, excessive remediation times for several
    critical controls and inappropriate prioritization of a POA&M item related to account
    management. We discussed these issues with USPTO security officials, who addressed our
    concerns.




FINAL REPORT NO. OIG-13-014-A                                                                  7
U.S. DEPARTMENT OF COMMERCE                                          OFFICE OF INSPECTOR GENERAL

Recommendations

To help ensure that USPTO appropriately considers IT security in future IT system
development efforts, we make the following recommendations to the Under Secretary of
Commerce for Intellectual Property and Director of the United States Patent and Trademark
Office:
    1.	 Ensure that system owners register all systems under development in Cyber Security
        Assessment and Management during the initiation phase of the SDLC.

    2.	 Ensure that USPTO rigorously applies its SDLC process and the RMF to all IT system
        development projects. This should include ensuring that required system security
        documents are appropriately developed and updated and that security controls required
        to protect a system are implemented and assessed.

    3.	 Ensure that system owners, information system security officers, technical leads, project
        managers, and program managers attend the SDLC role-based training course on a
        regular basis.

    4.	 Ensure that the Cybersecurity Division representatives have a role in deciding whether
        IT system development projects should transition to a subsequent phase in the SDLC
        based on their assessment of the effectiveness of incorporating security into the
        process.




FINAL REPORT NO. OIG-13-014-A                                                                 8
U.S. DEPARTMENT OF COMMERCE                                       OFFICE OF INSPECTOR GENERAL

Summary of Agency Response and
OIG Comments
In response to our draft report, USPTO concurred with our findings and recommendations. In
addition, USPTO indicated that it has remediated many of the issues related to our findings.




FINAL REPORT NO. OIG-13-014-A                                                             9
U.S. DEPARTMENT OF COMMERCE                                          OFFICE OF INSPECTOR GENERAL

Appendix A: Objectives, Scope, and
Methodology
Our objective was to assess the effectiveness of USPTO’s IT security program by determining
whether key security measures adequately protect its systems and its information. To do so,
we assessed security measures USPTO employed during development of its recently deployed
Public and Enterprise Wireless LAN (PEWLAN) system by
    •	 reviewing system-related documents, including project development documentation,
       policy and procedures, planning documents, security assessment documents, and other
       material supporting the development of PEWLAN and

    •	 interviewing USPTO IT security personnel.

We reviewed USPTO’s compliance with the following applicable provisions of law, regulations,
and mandatory guidance:

    •	 the Federal Information Security Management Act of 2002

    •	 IT Security Program Policy and Minimum Implementation Standards, U.S. Department of
       Commerce, introduced by the Chief Information Officer on March 9, 2009, and
       applicable Commerce Information Technology Requirements

    •	 NIST Federal Information Processing Standards publications:

             o	 199, Standards for Security Categorization of Federal Information and
                Information Systems

             o	 200, Minimum Security Requirements for Federal Information and Information
                Systems

    •	 NIST Special Publications:

             o	 800-18, Guide for Developing Security Plans for Information Technology Systems

             o	 800-37, Guide for Applying the Risk Management Framework to Federal
                Information Systems

             o	 800-53, Recommended Security Controls for Federal Information Systems and
                Organizations

             o	 800-53A, Guide for Assessing the Security Controls in Federal Information
                Systems

             o	 800-60, Guide for Mapping Types of Information and Information Systems to
                Security Categories, Volumes I and II


FINAL REPORT NO. OIG-13-014-A                                                               10
U.S. DEPARTMENT OF COMMERCE                                        OFFICE OF INSPECTOR GENERAL
             o 800-70, Security Configuration Checklists Program for IT Products

             o 800-115, Technical Guide to Information Security Testing and Assessment

We conducted our fieldwork from June to October 2012. We performed this audit under the
authority of the Inspector General Act of 1978, as amended, and Department Organization
Order 10-13, dated August 31, 2006. We conducted this audit in accordance with generally
accepted government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings
and conclusions based on our audit objectives. We believe that the evidence obtained provides
a reasonable basis for our findings and conclusions.




FINAL REPORT NO. OIG-13-014-A                                                              11
U.S. DEPARTMENT OF COMMERCE                                                                         OFFICE OF INSPECTOR GENERAL

Appendix B: Agency Response


                                 UNITED Sl'ATES PATENT AND TRADEMARK OFFICE
                                                        CHIEr FINANCIAL OrfiCER




                                                                                            JAN I 8 2013




             MEMORANDUM FOR:               AJJen Crawley
                                           Assistant Inspec tor General for System A~ uisition and IT
                                           Security, Office of Inspector General

             FROM:                          Anthony P. Scardino        a
                                                                     ....J,... ~
                                            Chief Financial Officer ,...... J
                                                                                   z~

             SUBJECT:                      Response to Draft Report "USPTO Deployed Wireless Capability
                                           with Minimal ConsideraJionfor IT Security'" (December 2012)


             Thank you for your draft report dated December 14, 2012, detailing your findings and
             recommendations. We appreciate the effort your staff has made in evaluating the effectiveness
             of our PEWLAN Information System. We have carefully considered and concur with the
             recommendations made in the subject draft report. The United States Patent and Trademark
             Office (USPTO) provides the following attachment as our response to the audit report findings.

             Again, we thank the Assistant Inspector General for System Acquisition and IT Security for the
             report. We intend to meet the recommendations in a diligent manner, and we will gratefully
             accept suggestions as we move forward to ensure that an effective security program is in place
             that will enable us to securely maintain systems in support of the USPTO.



             Attachment




                                     P.O. Box 1450, Alexandria, Virginia 22313-1450 - WMYUSPTOGOV




FINAL REPORT NO. OIG-13-014-A                                                                                             12
U.S. DEPARTMENT OF COMMERCE                                                          OFFICE OF INSPECTOR GENERAL


         USPTO Cyber Security's Response to FY 2012 FJSMA Assessment of tbe P ublic and
         En terprise Wireless LAN <PEWLAN) (PTOI-014-00), Draft Report December 2012

         OIG F inding:

         1. PEWLAN was inappropriately connected to USPTO 's operational environment.

             •   USPTO connected PEWLAN to its operational environment to conduct penerration lests,
                 which idenlified serious security weaknesses in the system 's architecture and security
                 controls. PEWLAN remained intermittently connected to the USPTO operational
                 environment o ver the neJ.t three monthsjiJflowiflg rite completion ofthe p~rcetruliun
                 testing.

             •   USPTO did not identify, implement, and document security controls required lO
                 protect the system prior to connecting PEWLA.N to the operational environment. As a
                 result, the USPTO was unable to assess appropriate security controls leaving critical
                 operational systems at risks while conducting penetration tests, remediating weaknesses,
                 and implementing architectural changes associated with PEWLAN.

             •   The penetration tests performed do not constitute a full assessment ofsecurity control
                 implementations nor does it convey all risks to USPTO 's operational environment.

             •   Penetration tests revealed that by directly connecting PEWLAN to the operational
                 environment, risks were increased due to the presence of the following vulnerabilities:

                        •     internal infrasrructure componenls were visible to public users
                        •     Authentication of users did not function as intended
                        ..    Credentials used to log on to USPTO systems were vulnerable on the public
                              portion of PEWLAN
                              The wireless inlrusion prevention system did not appropriately detect and
                              provide a/ens .for securily evenls

             •   USPTO did not have an accurate perspective ofassocialed risks to support ils decision to
                 put PEWLAN into its operational environment due to the fact that the appropriate
                 security controls were not selected and implemented In addition., a system security plan
                 was not in place in the following ten months since the PEWLAN project was initiated.

         USPTO Response:

         USPTO agrees with this finding. The following actions were taken to address the concerns
         above:

                    •       A System Security Plan (SSP) was created for PEWLAN and was final ized on
                            August 15, 2012. The SSP addressed the implementation and planned
                            implementation of all security controls within NIST Special Publication 800-53
                            Revision 3.


                                                      Pagel of l 2




FINAL REPORT NO. OIG-13-014-A                                                                                13
U.S. DEPARTMENT OF COMMERCE                                                     OFFICE OF INSPECTOR GENERAL


                  •   Full assessments of the appl icable security controls for PEWLAN were completed
                      in accordance with NIST SP 800-37 Revision 1 and NIST SP 800-53A.

                  •   Vulnerability scans were performed on all PEWLAN devices. An analysis was
                      performed on the scan results to ensure that there were no major vulnerabilities
                      and Lhat the latest applicable patches were installed. The analysis was provided to
                      the assessment team to use as artifact evidence.

                  •   Plan of Action & Milestones (POA&M) were created in the Cyber Security
                      Assessment & Management (CSAM) tool tor all planned controls. The following
                      are POA&Ms that were created pre and post assessment:

                         o CM-2, CM-2( 1), CM-2(3) Baseline Configuration

                         o CM-6 Configuration Settings

                         o CM-7, CM-7(1) Least Functionality

                         o      MA-2 Controlled Maintenance

                         o MA-6 Timely Maintenance

                         o SI-2 Flaw Remediation

                         o      AC-2, AC-2(1 ), AC-2(2), AC-2(3), AC-2(4) Account Management

                         o AC-6, AC-6(1 ) Least Privilege

                         o AU-2, AU-2(3) Auditable Events

                         o IA-2, IA-2(1), IA-2(2), IA-2(3) Identification and Authentication

                         o AC-8 System Use Notification

                         o RA-5 Vulnerability Scanning

                  •   All of the POA&Ms created for PEWLAN have been addressed, remediated and
                      closed as shown in the table below.

                  •   The issue which allowed internal infrastructure components to be visible to public
                      users has been remediated by recon:figuring the Perimeter Firewalls to adequately
                      block discovery scans.




                                                 Page 3 of 12




FINAL REPORT NO. OIG-13-014-A                                                                               14
U.S. DEPARTMENT OF COMMERCE                                                       OFFICE OF INSPECTOR GENERAL


                 •   The issues with weaknesses to public wireless authentication using USPTO
                     credentials have been resolved. The Entrust certificate authority has been
                     incorporated into the authentication process to adequately verify a user.

                 •   The issue pertaining to d etection and security alerts for the Wireless Intrusion
                     Protection System (WIPS) has been resolved. Security alerts are now being
                     produced and recorded for PEWLAN as intended.

                 •   The PEWLAN assessment yielded a Risk Assessment Report (RAR) justifying a
                     determination for granting an "Authority to Operate" for the system was based on
                     the risk analysis within the report. The risks were mapped to the appropriate
                     NlST security controls and were acknowledged by the authorizing official.




                                                 .Page 4 of 12




FINAL REPORT NO. OIG-13-014-A                                                                            15
U.S. DEPARTMENT OF COMMERCE                                                       OFFICE OF INSPECTOR GENERAL

       OIG Finding:

       2. PEWLAN was placed into operation without proper authorization.

               •   USPTO granted an Interim Authority to Test (fAIT) for PEWLAN based solely on the
                   risks identified in the penetration test reports and without assurance that security
                   conlrols were properly implemented. In addition, the fAIT was gran!ed after the
                   system was in operation.

               •   The IAIT identified the need to remediate vulnerabilities discovered during
                   penetratiOn testmg and to finalize documentatiOn for the system. However, the IATT
                   did not address key elements to Slpport the authorization decision..

                   o The fAIT did not identifY specific test objectives, the need for security control
                       assessments, and a plan to develop a complete security authorization package
                       before the expircuion of the fAIT.

                   o The only system security plan that existed at the time the !A TT was issued was a
                     preliminary draft, which did not include implementation descriptions for security
                     controls and did not allocate them to PEWLAN system components.


       USPTO Response:

       USPTO agrees with this finding. The follo\ving actions have been taken to address the issues
       above:

                   •   A full assessment was performed on PEWLAN in which any security controls that
                       were not implemented or working as intended, were deemed as risks to the
                       USPTO. The vulnerabilities were identified within the Security Assessment
                       Report (SAR) and the risks associated with the vulnerabilities were documented
                       within the Risk Assessment Report (RAR).

                   •   A Plan of Actions & Milestones was created for the risks identified in the RAR in
                       order to adequately track and monitor them in accordance "'~th US PTO policy.

                   •   In additio11; the lAIT template has been revised to ensure future systems seeking
                       approval to test in a production environment arc required to identify the
                       following:

                          o     identify specific test objectives

                          o     Risk associated to security controls

                          o     Compensating security controls



                                                     Page 5 of12




FINAL REPORT NO. OIG-13-014-A                                                                              16
U.S. DEPARTMENT OF COMMERCE                                                    OFFICE OF INSPECTOR GENERAL


                        o   Required remedial action per formed in conjunction with testing

                 •   The PEWLAI'J' System Security P lan was finalized and approved by the System
                     Owner (SO), Technical Lead (fL), Senior Information Security Officer (SJSO)
                     and the Authorizing Official (AO) on A ugust 15, 2012.




                                               Page6of12




FINAL REPORT NO. OIG-13-014-A                                                                        17
U.S. DEPARTMENT OF COMMERCE     OFFICE OF INSPECTOR GENERAL




FINAL REPORT NO. OIG-13-014-A                         18
U.S. DEPARTMENT OF COMMERCE     OFFICE OF INSPECTOR GENERAL




FINAL REPORT NO. OIG-13-014-A                         19
U.S. DEPARTMENT OF COMMERCE     OFFICE OF INSPECTOR GENERAL




FINAL REPORT NO. OIG-13-014-A                         20
U.S. DEPARTMENT OF COMMERCE     OFFICE OF INSPECTOR GENERAL




FINAL REPORT NO. OIG-13-014-A                         21
U.S. DEPARTMENT OF COMMERCE     OFFICE OF INSPECTOR GENERAL




FINAL REPORT NO. OIG-13-014-A                         22
U.S. DEPARTMENT OF COMMERCE     OFFICE OF INSPECTOR GENERAL




011200000142




FINAL REPORT NO. OIG-13-014-A                         23
